April 27, 2009

SUSAN M. PLONKEY
VICE PRESIDENT, SALES

SUBJECT: Audit Report – Performance-Based Incentive Programs
         for Sales Employees (Report Number MS-AR-09-007)

This report presents the results of our self-initiated audit of the Performance-Based
Incentive Programs for Sales Employees (Project Number 08RG013MS000). Our
objectives were to assess the U.S. Postal Service’s Sales organization’s (Sales)
approach to assigning sales accounts to employees and the method used for allocating
revenue to the accounts. We also benchmarked Sales employees’ compensation
against compensation offered to such employees at other organizations. See Appendix
A for additional information about this audit.

Conclusion

The process field managers followed in assigning accounts to Sales employees needs
improvement. Although the business rules required justification and approval by
headquarters management, they did not provide guidance on factors that field
managers should consider in assigning accounts to Sales employees. In addition,
Sales employees spent time researching CustomerFirst! to identify revenue that was not
linked to their portfolios, rather than performing actual sales duties. Further, trends for
the Postal Service’s performance incentives for Sales employees were not comparable
to these trends and incentives at other organizations and did not align with overall
business results. Finally, managers awarded incentives to Sales employees based on
revenue that did not result from their sales efforts.

Process for Assigning Accounts to Sales Employees Needs Improvement

Sales began using the Sales Compensation Incentive Plan (SCIP) in fiscal year (FY)
2004, which called for managers to award incentives to employees based on the
performance of their assigned accounts. However, the process that managers followed
in assigning accounts needed improvement. Although the business rules for assigning
accounts required justification for assignments and approval by headquarters
management, they did not provide guidance on the factors that field managers should
consider when they assign accounts to employees. Without a more transparent
methodology for assigning accounts, employees may conclude that managers assign
Performance-Based Incentive Programs for Sales Employees                      MS-AR-09-007



preferable accounts to favored employees, which could lower employee morale and
negatively impact productivity. See Appendix B for our detailed analysis of this issue.

Management terminated the SCIP effective February 20, 2009. Officials stated they are
developing a new program in consultation with the National Association of Postal
Supervisors.

We recommend the Vice President, Sales:

   1. Revise the business rules to incorporate guidance on factors that field managers
      should consider in assigning accounts to Sales employees.

   2. Communicate the revised business rules to all Sales employees.

   3. Publish a summary of incentive payments for the new program, similar to
      Appendix C, to dispel the perception of favoritism.

Management’s Comments

Management agreed with recommendations 1 and 2. They plan to re-organize the
Sales organization by September 2009. Under the new structure, field Sales personnel
will be assigned to geographic territories, instead of portfolios. The Business Service
Network and the Business Alliances function will work with specified customers and
accounts. Management will communicate the new structure internally via a Webinar
and also to customers at the quarterly Mailers Technical Advisory Committee meeting
scheduled to be held the week of April 27, 2009. Management also plans to meet with
the new Sales organization leadership team on June 10 – 11, 2009, to discuss the new
organizational structure.

Management asserts recommendation 3 is not applicable as SCIP was terminated and
the Postal Service does not plan to initiate a new compensation incentive program for
the Sales organization. See Appendix D for management’s comments, in their entirety.




                                                 2
Performance-Based Incentive Programs for Sales Employees                                             MS-AR-09-007



Sales Employees Spent Time Manually Assigning Revenue to Their Accounts

The Corporate Business Customer Information System (CBCIS)1 feeds the
CustomerFirst!2 system with daily revenue and volume data, aggregated and linked to a
customer’s site location on a monthly basis. As information is gathered by CBCIS and
fed to CustomerFirst!, not all revenue data is credited to the correct sales portfolios.

To ensure they are credited with all their sales, Sales employees spend time
researching CustomerFirst! to identify revenue that is not linked3 to their account
portfolios, rather than performing actual sales duties. When Sales employees identify
unlinked revenue, they submit change requests through their managers to headquarters
to update CustomerFirst!. We estimate the Postal Service incurred approximately
$251,000 during a 2-year period to compensate Sales employees for performing this
administrative function. See Appendix B for our detailed analysis of this issue.

We recommend the Vice President, Sales:

    4. Assign administrative personnel to identify and link revenue not associated with
       the correct account portfolios in CustomerFirst!

Management’s Comments

Management agreed with recommendation 4. The Manager, Business Customer
Intelligence, has assumed responsibility for identifying and linking revenue to customer
accounts in CustomerFirst! and several other Postal Service databases that contain
business customer specific data.

Trends in Total Incentives Paid Did Not Correlate With Revenue Growth

Trends for the Postal Service’s performance incentives for its Sales employees were not
comparable to the trends at other organizations. While total performance incentives
awarded to Sales employees at other organizations moved in proportion with the level
of revenue growth, we found no correlation between total Postal Service incentive
payments and commercial revenue growth. This condition existed because officials did
not consider overall business results in determining the level of payouts.

The purpose of the SCIP was to align performance with business objectives and
strengthen the link between pay and business results. The program was implemented
to reward Sales employees for results that directly support the achievement of the


1
  The CBCIS is a repository of customer profile information, volume and revenue data, and postal product information
from the National Meter Accounting and Tracking System, PostalOne!, Electronic Marketing Reporting System, and
Official Mail Accounting System.
2
  CustomerFirst! is the system used by the Postal Service to monitor sales activity by employees.
3
  Linking is the process used to disassociate the CustomerFirst! record from its current managed sales account and
associate it to its correct managed sales account.




                                                         3
Performance-Based Incentive Programs for Sales Employees                     MS-AR-09-007



Postal Service’s strategic objectives. However, the program – now terminated – did not
accomplish its objectives. See Appendix B for our detailed analysis of this issue.

We recommend the Vice President, Sales:

   5. Design the new program to align performance incentives with overall business
      results.

Management’s Comments

Management agreed with recommendation 5. They stated field Sales employees will be
given performance goals and incentives as part of the National Performance
Assessment (NPA) program that incents other Postal Service personnel. This will more
closely align the Sales organization with other functional groups and the overall
performance of the Postal Service. Management will establish interim goals for the
remainder of FY 2009 and annual NPA goals will be established at the beginning of FY
2010.

Performance Incentives Awarded Were Not Always Based on Efforts of Sales
Employees

Postal Service managers awarded performance incentives to Sales employees based
on revenue that did not result from their sales efforts. Under the SCIP, management
awarded performance incentives to Sales employees based on revenue generated by
their assigned accounts. The plan did not consider whether there was a correlation
between the revenue generated and the employees’ actual work. For example, in FY
2008, the federal government provided a tax rebate to some taxpayers to stimulate the
economy. As a result of the tax rebate checks mailed to taxpayers, Postal Service
revenue from Internal Revenue Service (IRS) mailings increased approximately $78.6
million from the previous year. While there was no correlation between the efforts of the
Sales employee assigned to the IRS account and the revenue generated from this
account, the employee nevertheless received increased performance incentives. See
Appendix B for our detailed analysis of this issue.

We suggest the Vice President, Sales:

   6. Design the new program to award incentives to Sales employees only for
      revenue generated directly as a result of their sales efforts.

Management’s Comments

Management agreed with suggestion 6. Management stated this suggestion will be
addressed by making field Sales employees tied to Corporate and Unit goals
established in the NPA program and will be implemented by October 2009.




                                                 4
Performance-Based Incentive Programs for Sales Employees                      MS-AR-09-007



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the suggestion, and the corrective
actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 2, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until OIG provides written confirmation
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Robert F. Bernstock
    Katherine S. Banks




                                                 5
Performance-Based Incentive Programs for Sales Employees                      MS-AR-09-007



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Sales is a direct selling organization with the goal of understanding its customers’
businesses and offering solutions that will allow them to choose the Postal Service as
their strategic partner. Sales’ vision is that “all customers consider Postal Service’s
solutions for their business and personal needs, resulting in a profitable, long-term
business relationship.”

In FY 2004, Postal Service management saw a compelling need for change in the sales
force, including incentive-based compensation. Part of the resulting change involved
the initiation of the SCIP for all quota-bearing members of the direct sales force,
including the management team.

The SCIP provided a method of aligning performance with business objectives, while
attempting to strengthen the link between compensation and business results. The
compensation incentive process rewarded Sales employees for results that directly
supported achievement of the Postal Service’s strategic objectives. Individual targets
were established for Sales employees, their line managers, and ultimately the area
Sales managers. These goals encompassed both managed accounts and new
business development within a defined territory.

Each FY’s SCIP began with the evaluation of overall commercial revenue on an
account-by-account basis. Headquarters Sales management considered each account
on an individual basis to evaluate growth potential for the next year, and employees
provided input on their customers’ economic or strategic plans. Management also set
performance expectations at the beginning of the year.

Under the SCIP, headquarters Sales management evaluated business performance
results each month and calculated individual account achievement each quarter using
year-to-date revenue. Sales employees who exceeded 100 percent of their year-to-
date expectations received an incentive check following the quarterly payout schedule.
Compensation was paid in small increments on a quarterly basis, with the majority of
funds held in reserve until the end of the FY. The end-of-year payout was based on
final fiscal year results and was in addition to the quarterly payout. Management
asserted that it directly tied compensation to sales performance results when individual
portfolio expectations were surpassed. For FY 2008, quarterly and end-of-year payout
amounts were as follows:




                                                 6
Performance-Based Incentive Programs for Sales Employees                                        MS-AR-09-007




                                       Table 1.
                        FY 2008 Performance Incentive Payouts
                                          Quarterly      End-of-Year
                                          Incentive       Incentive
                                           Payouts         Payouts
               Sales Force                      $250     $525 - $15,000
               Manager, Sales                   $500   $1,000 - $20,000
               Manager, Major Accounts        $1,000   $2,500 - $25,000
               Regional Manager, Sales        $2,000   $4,500 - $30,000
             Source: FY 2008 Sales Management Process Manual

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the Sales Organization’s approach to assigning sales
accounts to employees and the method used for allocating revenue to the accounts.
We also benchmarked Sales employees’ compensation against compensation offered
to Sales employees at other organizations.

To accomplish our objectives, we:

    •   Obtained and reviewed background information for the Postal Service SCIP.

    •   Interviewed Sales managers to obtain an understanding of the procedures they
        followed in assigning accounts to employees and the method they used to
        allocate revenue to accounts.

    •   Analyzed eAward4 data for FYs 2005 through 2008, to determine amounts
        awarded to Sales employees under the SCIP.

    •   Judgmentally selected and reviewed 48 account portfolios in CustomerFirst! to
        determine whether incentive payouts in FYs 2005 through 2008 were based on
        Sales employees’ account performance.

    •   Interviewed Sales managers and employees to identify procedures for
        maintaining account portfolios in CustomerFirst!




4
 The eAwards application is a web-based program that supports the Postal Service Recognition and Awards
Program.




                                                       7
Performance-Based Incentive Programs for Sales Employees                    MS-AR-09-007



   •   Obtained and reviewed a summary of link requests for FYs 2005 through 2008
       (year-to-date May 2008) to estimate the amount of time Sales employees spent
       performing administrative duties.

   •   Observed Sales personnel performing link requests to determine the amount of
       time employees spent processing link requests.

   •   Benchmarked the Postal Service Sales employees’ compensation against
       compensation offered to sales employees at 37 other organizations with over $1
       billion in revenue.

We conducted this performance audit from March 2008 through April 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We relied on data obtained
from CustomerFirst! and the eAward system. We did not directly audit CustomerFirst!
or the eAward system, but performed a limited data integrity review to support our data
reliance. We discussed our observations and conclusions with management officials on
March 12, 2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has not issued any reports related to our objectives.




                                                 8
Performance-Based Incentive Programs for Sales Employees                                        MS-AR-09-007




                              APPENDIX B: DETAILED ANALYSIS

Process for Assigning Accounts to Sales Employees Needs Improvement

Some employees felt that there was favoritism in incentive payments. We reviewed
48 judgmentally selected account portfolios in CustomerFirst!, and did not identify
evidence of favoritism. Instead, management officials awarded incentives to Sales
employees based on the performance of their assigned accounts. According to eAward
data for FYs 2005 through 2008, management officials awarded 1,406 incentive
payouts totaling $3.4 million.

As might be expected, only a small number of Sales employees received payouts in
each of the years reviewed, and those numbers grew as the number of years
considered declined.

    •   48 employees received payouts in all 4 years. Of these 48 employees, only 23
        received a total payout greater than $10,000 for all 4 years.
    •   173 employees received payouts in 3 of the 4 years.
    •   207 employees received payouts in 2 of the 4 years.
    •   291 employees received a payout in just 1 of the years. (See Appendix C.)

However, the process managers followed in assigning accounts needed improvement.
Although the business rules for assigning accounts required justification for account
assignment and approval by headquarters management, it did not give field managers
guidance on factors they should consider when assigning accounts to Sales employees.

A properly designed performance incentive program includes a plan design that aligns
strategic operating priorities with desired employee behavior; performance metrics that
balance competing priorities, including productivity and quality; and stakeholders who
concur that targeted performance levels are realistic and potential incentive payments
are fair, thereby creating a “win-win” work environment.5 Without a more transparent
methodology for assigning accounts, employees may conclude that managers assign
preferable accounts to favored employees, which could lower employee morale and
negatively impact productivity.

Sales Employees Spent Time Manually Assigning Revenue to Their Accounts

The CBCIS feeds the CustomerFirst! system with daily revenue and volume data,
aggregated and linked to a customer’s site location on a monthly basis. As information
is gathered by CBCIS and fed to CustomerFirst!, not all revenue data is credited to the
correct sales portfolios.

5
  President’s Commission on the United States Postal Service Compensation and Incentive System Design Study,
Independent Analysis of Incentive Compensation at the United States Postal Service, dated June 6, 2003.




                                                       9
Performance-Based Incentive Programs for Sales Employees                                             MS-AR-09-007




To ensure they are credited with all their sales, Sales employees spend time
researching CustomerFirst! to identify revenue not linked to their individual sales
portfolios, rather than performing actual sales duties. When Sales employees identify
unlinked revenue, they submit change requests through their managers to headquarters
for CustomerFirst! to be updated. Headquarters reviews the change requests and
makes the appropriate updates.

This occurs because CustomerFirst! cannot always associate incoming permit numbers
with a sales account. Postal Service systems that are feeding CustomerFirst! cannot
identify mailers or mail owners because the systems are permit-driven. Because
mailers or mail owners need a permit at each mail entry point, they can have many
permits, and these systems do not always combine permit numbers to provide
information by the individual mailers or mail owners.

From FY 2005 through May 2008, Sales employees submitted 89,705 change requests
to headquarters. We observed and interviewed sales personnel to determine the
average time they spend in CustomerFirst! to research and identify accounts that are
not linked to their sales portfolios. Based on our conservative estimate of 7 minutes to
research and submit a change request, we estimate that the Postal Service incurred
approximately $251,0006 in a 2-year period to compensate Sales employees for
performing this administrative function.

Although the cost associated with this linking process is not significant, we noted that
the linking process is a distraction from the Sales employees’ primary focus of customer
interaction. Management is also concerned about the distractions of linking, and has
identified it as one of the obstacles they plan to remove to help employees focus on
customers.

Trends in Total Incentives Paid Did Not Correlate With Revenue Growth

The Postal Service Sales employees’ compensation package, which consists of salary
and bonus, is comparable to packages offered to Sales employees at other
organizations.7 For the 37 companies against which we benchmarked:

    •   Thirty-two paid Sales employees salaries ranging from $45,000 to $95,800,
        comparable to Postal Service Sales employees’ salaries, which ranged from
        $38,619 to $97,296.


6
  Since there were 89,705 link requests performed from FYs 2005 – 2008 (year-to-date May 2008), we determined
that Sales personnel averaged 24,465 yearly links (89,705/3.67 years). To calculate the costs for 1 year of Sales
employees’ performing link requests, we calculated 7 minutes ⁄ 60 minutes × 24,465 links × $43.96 (ES-16 fully
loaded rate for Sales employee) = $125,473. To calculate 2 years, $125,473 × 2 years = $250,946.
7
  Common sales compensation packages offered by other organizations include straight commission, variable
commission, draw against commission, base pay plus commission, salary, salary and bonus, and residual
commission.




                                                        10
Performance-Based Incentive Programs for Sales Employees                                       MS-AR-09-007



    •   Twenty-eight paid performance incentives based on sales revenue (quarterly or
        annually), similar to the performance incentive the Postal Service Sales
        Organization offered to its employees.

We also analyzed the Postal Service’s performance incentives for Sales employees
using the results of a sales compensation trend survey performed by the Alexander
Group in 2009.8 The survey data was collected from 150,000 sales professionals
representing 180 large U.S. corporations.

Our analysis indicated that trends for the Postal Service’s performance incentives are
not comparable to trends for performance incentives offered to Sales employees at
other organizations. Total performance incentives awarded to Sales employees at other
organizations from 2005 through 2008 moved in proportion with the level of revenue
growth. However, we found no correlation between the Postal Service’s total incentive
payments and commercial revenue growth. We also noted a significant increase in the
Postal Service’s FY 2008 total performance incentive payouts compared to other
organizations. For the 180 corporations, the Alexander Group study showed a 6
percent increase in revenue and a corresponding 2.5 percent increase in performance
incentive payments for FY 2008. Comparatively, Postal Service commercial revenue
remained flat; however, performance incentives increased by 292 percent. (See Tables
2 and 3.)

This condition existed because management officials did not consider overall business
results in determining the level of payouts. For example, commercial revenue remained
flat in FY 2008. However, officials increased FY 2008 performance incentives for each
category of its sales employees by at least 100 percent. (See Table 2.) Officials stated
they increased performance incentive payouts in FYs 2007 and 2008 to better motivate
the Sales employees to generate more revenue. Officials indicated they did not review
industry data in making the decision, but considered factors such as retaining existing
talent and recruitment potential.




8
 The Alexander Group, Inc. (Sales Growth Consultants), 2009 Sales Compensation Trends Survey Results, January
2009.




                                                     11
Performance-Based Incentive Programs for Sales Employees                                        MS-AR-09-007




                                           Table 2.
               Percentage Increase in Incentive Compensation and Commercial
                                 Revenue for Postal Service

                                                 FY 2008        FY 2007       FY 2006       FY 2005
              Percentage Increase in
                                                     0             2.9           3.8            1.4
              Commercial Revenue
              Percentage Increase in
              Incentive                             292           (32)            46           N/A9
              Compensation

               Maximum Incentive Payouts for Postal Service Sales Employees

                                                 FY 2008        FY 2007       FY 2006       FY 2005
              Sales Force                        $15,000         $5,000        $5,000        $5,000
              Sales Managers                     $20,000         $7,500        $7,500        $7,500
              Manager, Major
                                                 $25,000        $10,000        $7,500        $7,500
              Accounts
              Regional Manager,
                                                 $30,000        $15,000       $10,000        $10,000
              Sales
            Sources: Postal Service Financial and Operating Statements FYs 2004 – 2008
            Postal Service Sales Compensation Totals FYs 2005 – 2008
            Postal Service Sales Management Process Manual FYs 2005 – 2008


                                            Table 3.
                   Percentage Increases in Incentive Compensation and Sales
                           Revenue from the Alexander Group Study

                                                 FY 2008        FY 2007       FY 2006       FY 2005
              Percentage Increase in
                                                     6              8              8            10
              Sales Revenue
              Percentage Increase in
              Incentive                             2.5             4              5             5
              Compensation
            Source: Alexander Group, Inc., 2009 Sales Compensation Trends Study Results, January 2009

The purpose of the SCIP was to align performance with business objectives and
strengthen the link between pay and business results. The program was implemented
to reward Sales employees for results that directly support the achievement of the
Postal Service’s strategic objectives. The program was not accomplishing its goals.


9
 The OIG only analyzed Postal Service Sales compensation data beginning in FY 2005; therefore, FY 2004 data was
not used for comparison.




                                                      12
Performance-Based Incentive Programs for Sales Employees                  MS-AR-09-007



Performance Incentives Awarded Were Not Always Based on Efforts of Sales
Employees

Postal Service management awarded incentives to Sales employees based on revenue
generated that did not result from their efforts. Under the SCIP, management awarded
performance incentives to Sales employees based on revenue generated by their
assigned accounts. The plan did not consider whether there was a correlation between
the revenue generated and the Sales employees’ efforts.

For example, in FY 2008, the federal government provided a tax rebate to some
taxpayers to stimulate the economy. As a result of the tax rebate checks mailed to
taxpayers, Postal Service revenue from IRS mailings increased approximately $78.6
million from the previous year. In addition, the Presidential election year of 2008
generated increased mailings compared to 2007. Postal Service revenue for both
Senator Barack Obama (Obama for America) and Senator John McCain (McCain in
‘08), nominees for the Democratic and Republican Parties, increased by approximately
$2.6 million and $1.4 million, respectively, from 2007 levels. While there was no
correlation between sales efforts and the revenue generated from these accounts, the
Sales employees who were assigned the accounts received increased performance
incentives.

The goal of the SCIP was to align performance with business objectives, while
attempting to strengthen the link between pay and business results. Consequently,
management should award performance incentives to sales employees only for revenue
generated directly as a result of their sales efforts.




                                                 13
Performance-Based Incentive Programs for Sales Employees                                 MS-AR-09-007



                       APPENDIX C: INCENTIVE AWARD PAYOUTS

                     Incentive Award Payouts for the Sales Compensation Incentive Plan
                                          FYs 2005 through 2008


   Incentive
    Amount          FY 2005             FY 2006            FY 2007         FY 2008           Total
                        0                   0                   0              6               6
                     payouts            payouts             payouts         payouts         payouts
   >$18,001
                     totaling           totaling            totaling        totaling        totaling
                       $0                  $0                  $0          $110,750        $110,750
                         0                  0                   0              9               9
   $16,001 -         payouts            payouts             payouts         payouts         payouts
    $18,000          totaling           totaling            totaling        totaling        totaling
                        $0                 $0                  $0          $157,250        $157,250
                         0                  0                   0              8               8
   $14,001 -         payouts            payouts             payouts         payouts         payouts
    $16,000          totaling           totaling            totaling        totaling        totaling
                        $0                 $0                  $0          $120,225        $120,225
                         0                  0                  0               8               8
   $12,001 -         payouts            payouts             payouts         payouts         payouts
    $14,000          totaling           totaling            totaling        totaling        totaling
                        $0                 $0                 $0           $103,675        $103,675
                         0                  0                   0              12              12
   $10,001 -         payouts            payouts             payouts         payouts         payouts
    $12,000          totaling           totaling            totaling        totaling        totaling
                        $0                 $0                  $0          $131,850        $131,850
                         0                  0                   0              26              26
    $8,001 -         payouts             Payouts            payouts         payouts         payouts
    $10,000          totaling            totaling           totaling        totaling        totaling
                        $0                 $0                  $0          $234,000        $234,000
                        8                   4                  2               28              42
    $6,001 -         payouts            payouts             payouts         payouts         payouts
     $8,000          totaling            totaling           totaling        totaling        totaling
                     $57,925            $27,941             $13,603        $192,875        $292,344
                        40                 32                  15              62             149
    $4,001 -         payouts             payouts            payouts         payouts         payouts
     $6,000          totaling            totaling            totaling       totaling        totaling
                    $197,097            $157,000            $71,392        $307,475        $732,964
                        31                 79                  56              88             254
    $2,001 -         payouts             payouts            payouts         payouts         payouts
     $4,000          totaling            totaling           totaling        totaling        totaling
                     $91,437            $221,143           $151,100        $264,925        $728,605
                       131                 304                263             194             892
                     payouts             payouts            payouts         payouts         payouts
    <$2,001
                     totaling            totaling           totaling        totaling        totaling
                    $116,364            $269,928           $224,742        $187,300        $798,334
                       210                 419                 336            441             1,287
                     payouts             payouts            payouts        payouts          payouts
   TOTALS
                     totaling            totaling            totaling       totaling         totaling
                    $462,823            $676,012           $460,837       $1,810,325       $3,409,997
Source: Postal Service management provided eAwards data, FYs 2005–2008
`




                                                    14
Performance-Based Incentive Programs for Sales Employees   MS-AR-09-007



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                                 15
Performance-Based Incentive Programs for Sales Employees   MS-AR-09-007




                                                 16
Performance-Based Incentive Programs for Sales Employees   MS-AR-09-007




                                                 17
